<html>
<title> - THE STATUS OF ADVANCED NUCLEAR TECHNOLOGIES</title>
<body><pre>[Senate Hearing 114-474]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-474

              THE STATUS OF ADVANCED NUCLEAR TECHNOLOGIES

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2016

                               __________
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

           Available via the World Wide Web: http://fdsys.gov
           
           
                               ___________
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
23-127                       WASHINGTON : 2017                     
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe998e91be9d8b8d8a969b928ed09d9193d0">[email&#160;protected]</a>  
              
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia
                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
              Benjamin Reinke, Ph.D., Congressional Fellow
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
               Rory Stanley, Democratic Legislative Aide
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3
Daines, Hon. Steve, a U.S. Senator from Montana..................     4
Risch, Hon. James E., a U.S. Senator from Idaho..................     5
Crapo, Hon. Mike, a U.S. Senator from Idaho......................     5

                               WITNESSES

DeWitte, Dr. Jacob, CEO and Co-Founder, Oklo Inc.................     6
Gilleland, Dr. John, Chief Technical Officer, TerraPower.........    14
Hopkins, John, Chairman and Chief Executive Officer, NuScale 
  Power..........................................................    18
Kuczynski, Stephen, Chairman, President and Chief Executive 
  Officer, Southern Nuclear Operating Company, Inc...............    26
Peters, Dr. Mark, Director, Idaho National Laboratory............    42

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     3
Crapo, Hon. Mike:
    Opening Statement............................................     5
Daines, Hon. Steve:
    Opening Statement............................................     4
DeWitte, Dr. Jacob:
    Opening Statement............................................     6
    Written Testimony............................................     9
    Questions for the Record.....................................    81
General Atomics:
    Statement for the Record.....................................   116
Gilleland, Dr. John:
    Opening Statement............................................    14
    Written Testimony............................................    16
    Responses to Questions for the Record........................    88
Hopkins, John:
    Opening Statement............................................    18
    Written Testimony............................................    20
    Responses to Questions for the Record........................    91
Kuczynski, Stephen:
    Opening Statement............................................    26
    Written Testimony............................................    28
    Responses to Questions for the Record........................    97
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Peters, Dr. Mark:
    Opening Statement............................................    42
    Written Testimony............................................    44
    Responses to Questions for the Record........................   108
Poneman, Hon. Daniel:
    Statement for the Record.....................................   113
Risch, Hon. James E.:
    Opening Statement............................................     5

 
              THE STATUS OF ADVANCED NUCLEAR TECHNOLOGIES

                              ----------                              


                         Tuesday, May 17, 2016

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    Senator Cantwell will be joining us, but I understand she 
is stuck behind a motorcade.
    We come to order this morning to begin the hearing on the 
status of innovative advanced nuclear technologies. We are 
holding this hearing because nuclear energy must be a national 
priority. It provides about 20 percent of our nation's 
electricity and 63 percent of our emissions-free electricity. 
It is safe, and it is extremely reliable.
    When cold winters hit the Northeast and the flow of natural 
gas is restricted, nuclear plants can continue to provide 
electricity to residents, literally saving lives. When the wind 
is not blowing and the sun is not shining, nuclear is still 
providing essential base load capacity. For any number of good 
reasons, nuclear has to remain part of the energy mix.
    In addition to supporting the current nuclear fleet, I have 
long supported the research, development and deployment of next 
generation nuclear technologies, including small modular 
reactors, micro-reactors, Generation IV reactors and future 
fusion reactors. That support appears to be growing here in 
Congress which is a good thing for our country.
    We are entering a new era for nuclear power. The 
opportunity for innovation in nuclear technologies has not been 
this great since the 1960's. Despite the many difficult 
challenges associated with full deployment, technical--
financial, bureaucratic and license-related--there is 
unprecedented interest from both the public and private 
sectors. We can help by removing barriers and optimizing our 
public-private partnerships.
    Despite the clear benefits of nuclear energy, the industry 
is at a crossroads. The current operating fleet faces a number 
of challenges due to political decisions, or state market 
designs and regulations that skew the value of nuclear to the 
grid. Moreover, the President's greenhouse gas regulations do 
not value the contribution of nuclear-generated electricity on 
a level footing with the other sources of emissions free 
electricity.
    In order to facilitate the emergence of advanced nuclear 
technologies, we adopted the Nuclear Energy Innovation 
Capabilities Act, which was sponsored by Senator Crapo, as an 
amendment to our broad, bipartisan energy bill. Senator Crapo 
is with us this morning. Thank you, Senator, for your 
contributions on this important issue. That amendment was 
adopted by a vote of 87 to 4, highlighting the value placed on 
nuclear innovation on both sides of the aisle. The House has 
passed a nearly identical bill which we hope, when signed into 
law, will be a valuable step in getting advanced nuclear 
technologies to the market.
    As these technologies are developed they will face further 
challenges. To give one example, they will have to navigate a 
complicated and expensive NRC licensing process as they come 
closer to deployment.
    I am pleased to have joined, as a co-sponsor, Senator 
Inhofe's bipartisan bill, the Nuclear Energy Innovation 
Modernization Act. In many ways that bill compliments the 
provisions within our energy bill. It helps reform the NRC in 
smart ways without compromising safety, and I am hopeful that 
it will be reported quickly out of the Committee on Environment 
and Public Works.
    Beyond new legislation we must also continue our fiscally 
responsible support for nuclear research and development. In 
that vein, I was pleased that we were also able to increase the 
authorizations for both the Office of Science and ARPA-E within 
our energy bill.
    I believe that removing bureaucratic barriers to public-
private partnerships, reforming the licensing structure, and 
continuing responsible funding for nuclear science RD&D will 
help drive these innovative technologies to revolutionize the 
industry and provide robust economic growth.
    Our nation deployed the first commercial nuclear power 
plants, and our regulatory structure is still considered the 
gold standard. Our universities and national labs are world 
leaders in education and research. I see advanced reactors as 
the next chapter of America's leadership in this field.
    This is critical because we must remain the go to country 
for nuclear know how, especially as many foreign nations 
increase investment and try to challenge our dominance in this 
industry. Our nation must continue to be the major player on 
the world stage for nuclear energy, and we must be able to 
deploy our innovative advanced reactors here at home.
    I am pleased to welcome our very esteemed panel of 
witnesses. We have representatives from a great cross section 
of advanced reactor technologies at different stages of 
commercialization, a national laboratory that has been a 
nuclear leader for decades, and a utility that has consistently 
supported current and advanced nuclear technologies. I welcome 
all of you here today.
    With that I will turn to Ranking Member Cantwell, welcome.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thank you for 
calling this important hearing on advanced nuclear technology.
    I would also like to thank the panel for being here today 
and for their work in this important field. The group of 
witnesses will provide us with a comprehensive viewpoint needed 
to explore the current state of advanced nuclear technology in 
this country.
    Nuclear energy has provided nearly 20 percent of electrical 
generation in the United States over the past two decades and 
currently produces 60 percent of American's carbon free-
electricity, but the 99 reactors licensed to operate today in 
the U.S. will not last forever. If nuclear power is to remain 
part of our energy future, we need to develop and demonstrate 
the next generation of nuclear power.
    For me, we also need to deal with the challenges of nuclear 
waste. I should say, we all need to deal with this. It is 
something that presses every day for us in the State of 
Washington.
    The lack of a comprehensive set of solutions has hampered 
both commercial nuclear development as well as our defense 
waste cleanup efforts in this country. Secretary Moniz has 
worked hard to break the log jam, and I think this Committee 
will ultimately play a key role in crafting a path forward on 
this very technically challenging issue.
    Meantime, we should also acknowledge that while nuclear 
power has a record of operating safely and cost effectively, 
there is also potential for catastrophe like we have seen at 
Fukushima, Three Mile Island and Chernobyl.
    If nuclear power is to have a future, the problems that we 
have consistently been plagued by in the past must be met with 
innovation and effectiveness. New designs must be safer, 
cheaper and efficient, and proliferation resistant. In 
addition, we must have licensing and regulatory systems that 
ensure nuclear power is not only safe but accepted by the 
public so transparency and open communication by the industry 
and government is also important.
    The Department of Energy and private industry have been 
working to address these problems. There are several designs 
being considered here in the U.S. and globally that have 
promising features to address some of these long standing 
issues. I look forward to hearing from the witnesses today on 
those specific technologies.
    Advanced nuclear may, someday, make a real contribution to 
advanced manufacturing in Washington State and the Northwest 
Region. I am pleased to have here TerraPower, NuScale and the 
Idaho National Laboratory. The Pacific Northwest National 
Laboratory is also making important contributions in advanced 
nuclear development.
    The Northwest has proven to be an exciting place for the 
development of advanced nuclear technologies, and NuScale 
Energy, Energy Northwest, Utah Associated Municipal Power 
Systems are all partnering to construct and operate the 
country's first small modular reactor.
    In addition, TerraPower and the Chinese National Nuclear 
Corporation signed a memorandum of understanding to develop 
TerraPower's traveling wave reactor. So it is clear that making 
a dent in the global carbon emissions will require cooperation 
between U.S. and China which may prove to be one of the biggest 
nuclear-energy markets as well as a testing ground for advanced 
nuclear.
    TerraPower's engagement with China is an important example 
being set for advanced reactor technologies. In order to be a 
part of the new wave of nuclear energy, the U.S. must be a 
strong exporter of advanced proliferation resistant nuclear 
materials and technology.
    So the advancement of nuclear technology is an important 
pathway for the global community to move away from carbon 
emitting technologies. It is vital that the U.S. continue to 
lead in this area of clean energy, and nuclear solutions may 
prove to be a key component of our overall efforts.
    Again I thank the Chair for holding this important hearing, 
and I look forward to hearing from the witnesses.
    The Chairman. Thank you, Senator Cantwell, and thank you to 
our witnesses. We attempted to schedule this earlier in the 
year and unfortunately you got bumped. Thank you for your 
flexibility and your willingness to come back before the 
Committee.
    At this time, I will introduce a few of the witnesses, and 
we have a couple members here who would like to do more 
detailed introductions of some of our witnesses this morning.
    Our panel this morning will be lead off by Dr. Jacob 
DeWitte, who is the Co-Founder and the CEO of Oklo, welcome 
this morning.
    Dr. John Gilleland, who is the Chief Technical Officer at 
TerraPower, which Senator Cantwell has just mentioned.
    Mr. Hopkins will be introduced by Senator Daines this 
morning, as we understand that he is a fellow Montanan, but I 
also know that he is a pretty strong fisherman that comes up to 
Alaska occasionally. So, welcome to the Committee.
    Senator Daines?

   STATEMENT OF HON. STEVE DAINES, U.S. SENATOR FROM MONTANA

    Senator Daines. Well it is my honor to have John Hopkins 
here from Superior, Montana. He is the Chairman, CEO of 
NuScale, and it is great to have him with us here today.
    I am very much looking forward to his testimony and very 
excited about the innovation coming out of this group of 
panelists, specifically from John Hopkins' group, on these 
modular nuclear reactors as part of the solution going forward 
here with our all-of-the-above energy portfolio.
    Welcome, John.
    Mr. Hopkins. Thank you, sir.
    The Chairman. Thank you, Mr. Hopkins, for being here.
    After his testimony we will welcome Steve Kuczynski to the 
Committee. He is the President, CEO and Chairman of Southern 
Nuclear Operating Company, welcome. It is good to have you 
here.
    And Dr. Peters will be introduced by Senator Risch.

   STATEMENT OF HON. JAMES E. RISCH, U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you very much, Madam Chairman.
    Dr. Peters, welcome.
    I would like to introduce Dr. Peters, who is relatively new 
at the Idaho National Laboratory.
    Dr. Peters comes to us from Argonne, where he was an 
Associate Lab Director, and prior to that he had been employed 
as a scientist at Los Alamos. He has a deep background in 
nuclear energy.
    It is fitting that he comes to Idaho which is the flagship 
and lead nuclear energy laboratory in America, which we are 
very proud of. And that is for good reason. Most people do not 
realize that the first light bulb lit by civilian energy from 
nuclear power happened in Idaho at the Idaho National 
Laboratory. We are very proud of that, and we maintain that 
position.
    So, Dr. Peters, we are glad to have you. I am sure we will 
see you frequently here at this Committee.
    With the Chairman's permission I would like to introduce my 
colleague and friend, Senator Crapo.
    Senator Crapo, although not on this Committee, grew up in 
the shadow of Idaho National Laboratory in Eastern Idaho. He 
remains engaged and interested. He and I partner on virtually 
everything that we do over there. In fact, right now we are 
partnering on a couple of pieces of legislation which we just 
dropped. With the Chair's permission, I would like Senator 
Crapo, maybe, to just give us a couple of sentences on those 
two pieces of legislation which we are introducing.
    Mike?
    The Chairman. We are happy to invite you before the 
Committee, Senator Crapo, and I am happy to have had an 
opportunity to join you all out at the Idaho National Lab.
    Senator Risch. That is true. That is right.
    The Chairman. Very, very informative, and a very necessary, 
a very necessary, tour for so many of us.
    Senator Crapo, if you would like to say just a couple of 
words?
    Senator Crapo. I know this is not the usual procedure, so I 
will be very quick----
    The Chairman. I do not think you are being picked up by the 
record.
    Senator Cantwell. We are happy if you sit on our side of 
the dais.
    Senator Risch. Yes. [Laughter.]
    The Chairman. There you go.
    Senator Risch. I can assure you he is not very comfortable 
over there. [Laughter.]
    Senator Cassidy. Can we get a photo of that? [Laughter.]
    Senator Crapo. No, not with the sign. [Laughter.]

     STATEMENT OF HON. MIKE CRAPO, U.S. SENATOR FROM IDAHO

    Senator Crapo. Well thank you very much. I know this is 
unusual. So thank you, Senator Risch and Madam Chairman, for 
allowing me to just say a few sentences.
    Actually, Madam Chairman, you identified the legislation 
that Senator Risch just referenced in your introductory 
comments. So I won't elaborate further on that.
    We've got NEIMA and NEICA, the two major bills that will 
reform both the process and create the new emphasis for going 
into our new advanced nuclear reactors and helping to make them 
much more aggressively facilitated.
    I am excited about all of this, and I look forward to 
working with all of you. Thank you for letting me, kind of, 
join the Committee for a moment.
    The Chairman. We appreciate it. Thank you for your 
leadership on this, Senator Crapo.
    With that, let's begin with our panel of witnesses.
    Dr. DeWitte, if you would like to lead off, please?

 STATEMENT OF DR. JACOB DEWITTE, CEO AND CO-FOUNDER, OKLO INC.

    Dr. DeWitte. Thank you.
    Chairman Murkowski, Ranking Member Cantwell and 
distinguished members of this Committee, I want to thank you 
for holding this hearing and for giving me the opportunity to 
testify. I'm honored to be here today, and I'm excited that you 
are holding this hearing because I've been passionate about 
nuclear technology since my childhood.
    I was born and raised in Albuquerque, New Mexico, where my 
Saturdays as a young boy were often filled with my father 
taking me to get donuts followed by a visit to the National 
Nuclear Science Museum. And during those trips I recall being 
captivated by the science and technology and physics of nuclear 
power, and I knew from a young age that I wanted to work on 
nuclear reactors.
    So I am Jacob DeWitte, the CEO and Co-Founder of Oklo. Oklo 
is a Silicon Valley-based company developing a very small, 
advanced reactor that produces two megawatts of power. That's 
very small relative to without the nominal size of a thousand 
megawatts. We like to call it sometimes a micro-reactor or a 
nuclear battery and it is designed to bring distributed, clean, 
affordable and reliable power in small packages to the market.
    These reactors fit into containerized systems that can 
power a wide variety of markets both domestically and 
internationally which do not have access to affordable and 
reliable power and in some cases, do not have access to power 
at all. Our reactor operates purely on natural forces with very 
few moving parts in the entire system, and it is designed to 
operate for 12 years before refueling.
    It will produce reliable, affordable, safe, emission-free 
power wherever it is needed and the reactor is sized 
appropriately to open up new opportunities for clean and safe 
nuclear power in remote and rural communities as well as 
industrial and military sites in areas that are too small for 
larger reactors.
    The Oklo reactor has the potential to reduce these 
customers' energy bills by up to 90 percent. Furthermore, our 
reactor is up to 300 times more fuel efficient than current 
reactors and can actually consume the used fuel from today's 
reactors as well as depleted uranium stockpiles around the 
nation. In fact, our reactors and others like them, could power 
the world for 500 years with the global inventory of used fuel 
and depleted uranium, all while reducing the radioactive 
lifetime of those materials.
    Our reactors can also assist with plutonium disposition by 
consuming excess cold war materials and turning them into 
clean, peaceful energy.
    We started Oklo because we believe advanced reactors will 
be a significant part of the energy mix of the future, and we 
wanted to make that future a reality as quickly as we could.
    So advanced reactors can provide clean, affordable, 
reliable and extremely safe, carbon free power that can be 
deployed on a global scale. They offer the promise to realize 
the energy future envisioned by the intellectual giants upon 
whose shoulders we all stand. Fermi, Weinberg, Wigner, Seaborg, 
and others all saw the potential that next generation reactors 
have.
    Some of the key attributes of advanced reactors include a 
competitive economics due to reduced capital cost and shortened 
construction times, multiple energy output streams ranging from 
electricity to process heat, improved fuel efficiency and the 
ability to consume used nuclear fuel, flexible operations such 
as load following and grid stabilization to couple with 
renewables, and passive inherently safe designs producing walk 
away, safe technologies as well as flexible siting independent 
of access to cooling water. Additionally, advanced reactors 
enable a broad diversity of reactor sizes. Micro-reactors like 
ours can bring affordable and reliable nuclear power to areas 
that cannot support larger plants. Alaska and Hawaii are good 
examples.
    But there are a number of places in the continental U.S. as 
well as other U.S. territories that are excellent candidates 
for these reactors. The size and characteristics of our 
reactors also enable us to reach markets that are underserved 
by existing energy technologies.
    Looking farther afield, advanced reactor technologies can 
fuel mankind's ambitions of navigating the stars. We need 
energy to explore the heavens and nuclear energy will power 
future trips to our neighboring planets and beyond. This is not 
science fiction. This is work that is actually happening today.
    Dozens of startups and large companies are now working to 
commercialize advanced reactor technologies in the United 
States. Nuclear innovation is alive and well and advances in 
computational simulation and modeling, along with an injection 
of talented, young, creative, hungry engineers into the nuclear 
industry have fueled much of this growth. Federal efforts to 
attract students into nuclear engineering programs over the 
last decade are paying dividends and there is more to come.
    This activity has also attracted over $1 billion in private 
investment. And these investments are supporting advanced 
reactor companies because of their massive market potential as 
well as the environmental benefits of next generation reactors. 
And while the capital invested so far is significant, there is 
still much more that can and will be invested in advanced 
reactor projects, especially if some of the remaining hurdles 
are cleared.
    Advanced reactor developers face a variety of hurdles and 
challenges to deploying their technologies. One such challenge 
is the regulatory process which is significant and necessary 
challenge, but it's a challenge that advanced reactor 
developers must navigate.
    Unfortunately, the regulatory process, as it exists today, 
is not a good fit for these new technologies and the venture 
finance models that fund them. On the other hand, I must 
emphasize that the widely held belief that advanced reactors 
cannot be licensed today is also mistaken. We have found clear 
licensing pathways for our technology, but at the same time 
there is room for significant improvement and modernization.
    We laud the recent work done by the Department of Energy 
and by this Committee and by the Senate as a whole both 
supporting the recent legislation that passed into the Energy 
bill as well as the pending legislation for regulatory reform. 
These are crucial steps to help us seize the tremendous 
opportunities in front of us, to advance nuclear power and also 
the massive opportunities that we have to be the leader at the 
global stage.
    Thank you.
    [The prepared statement of Dr. DeWitte follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. DeWitte.
    Dr. Gilleland, welcome.

   STATEMENT OF DR. JOHN GILLELAND, CHIEF TECHNICAL OFFICER, 
                           TERRAPOWER

    Dr. Gilleland. Thank you.
    My name is John Gilleland. I'm the Chief Technical Officer, 
as was mentioned. I'm, sort of, CEO Emeritus, I suppose.
    It is a nuclear design company based in Bellevue, 
Washington. I'd like to thank you, Chairman Murkowski and the 
members of the Committee, for the invitation to testify here 
today and to extend my particular thanks to our home state 
Senator, Maria Cantwell, who has been a strong supporter of our 
operations. Thank you.
    TerraPower's goal is to bring our technologies to markets 
globally as sources of clean, non-emitting, affordable, base 
load energy and electricity. TerraPower is the developer of the 
traveling wave reactor, a full size, sodium cooled, fast 
reactor.
    We are also working with Southern Company, Oak Ridge 
National Lab and the Electric Power Research Institute in the 
early R & D phase of a very high-potential additional 
generation for a reactor. We won a DOE-advanced reactor concept 
award for this activity in January.
    Today I would like to talk about the traveling wave reactor 
because we've come a long way and we'd like to convey the 
lessons we've learned over the last ten years. We've been at 
this for ten years.
    In 2006 Bill Gates, our Chairman, convened a group of 
colleagues from the world of science and technology to address 
two issues, energy poverty and climate change.
    Many inhabitants of developing countries have little access 
to affordable base load electricity. Living standards cannot 
rise without electricity. Hospitals cannot function without 
access to reliable power. A child cannot do homework without 
light to read.
    It's been known for a long time that access to electrical 
energy is essential to human development, but the global 
consensus of scientists is that climate change requires us to 
radically reduce carbon emissions. Since developed countries 
and now developing countries are meeting the population's 
demands for base load power by burning large amounts of fossil 
fuels, the resulting emissions are locking us into a 
deteriorating spiral of climate change and damage to our 
environment.
    Ten years ago Bill Gates and his colleagues looked at the 
entire menu of low carbon energy solutions. They concluded that 
nuclear power is an essential element of any credible, low 
carbon emissions solution. For the right uses and the right 
venues, wind and solar will play valuable roles but nuclear is 
the only known technology that can provide the needed huge 
amounts of energy with minimum impact on our land use and thus, 
on the natural world.
    Nuclear power has already demonstrated its ability to 
generate large scale, dependable electricity without emissions 
at affordable prices, and the new nuclear plants now being 
constructed are setting new standards for accident prevention.
    We, at TerraPower, are now ten years and hundreds of 
millions of dollars into our advanced reactor development. As 
we've guided those efforts there have been many lessons 
learned. When I talk to students I usually talk about eight to 
ten of these lessons. For this Committee, I think there are two 
main lessons.
    First, TerraPower is already using Federal facilities such 
as the Idaho National Laboratory. Like other companies 
TerraPower pays to access the government's highly qualified, 
skilled researchers and advanced equipment. Ours is already an 
example of public/private partnership.
    The bulk of the funds I just mentioned, all from private 
visionary investors, have gone to universities, businesses and 
the national laboratories. This is in the spirit of the recent 
Paris meetings, and we are an early prototype for the 
breakthrough Energy Coalition's Mission Innovation goals.
    Neither the national labs, nor private enterprise could 
have accomplished what they have done without each other. The 
recent White House summit on nuclear energy endorsed this 
approach. The Gateway for Accelerated Innovation in Nuclear, or 
GAIN, aims to integrate the capabilities of the private sector, 
universities and laboratories.
    So the first big lesson taught to us over the last ten 
years is that programs like GAIN do work. That's what we've 
been doing for ten years.
    The second big lesson is the government needs to supplement 
and help the private sector with appropriate and solid 
oversight functions. We've had good experiences over the last 
ten years.
    One of the effective coordination--one is the effective 
coordination of TerraPower's international activities with the 
Department of Energy's National Security, Nuclear Security 
Administration and the Department of State. Another is the 
helpful set of consultations we've had with the Nuclear 
Regulatory Commission (NRC).
    But the lesson learned, as we look into the future and we 
lay out our particular plans, is that it is increasingly clear 
that Congress must ensure the NRC has sufficient know how and 
funding to license this country's next generation of nuclear 
plants.
    In closing, I would say our efforts on the TWR and MCFR, 
which is a Molten Salt Reactor we're doing with Southern 
Company and others, are but two designs. So we encourage 
exploration of other innovations such as was talked about by 
the gentleman to my right.
    It is only by working together that we will achieve the 
breakthroughs we need to make advanced reactors in a better 
world, a reality. The United States possesses unique strengths, 
technical and cultural, that can make astonishing 
accomplishments, if and only if we have the wisdom to unleash 
them.
    Thank you.
    [The prepared statement of Dr. Gilleland follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. Gilleland.
    Mr. Hopkins, welcome.

    STATEMENT OF JOHN HOPKINS, CHAIRMAN AND CHIEF EXECUTIVE 
                     OFFICER, NUSCALE POWER

    Mr. Hopkins. Thank you, Senator.
    NuScale Power is currently the leading developer of 
American small modular reactor technology. This technology has 
been in development for more than 15 years. Our company is 
based in Corvallis, Oregon and majority owned by the Fluor 
Corporation.
    We are advancing a unique and innovative SMR design which 
offers the safest light water reactor nuclear technology that 
is near term deployable. Our design is uniquely safe. We have 
solved one of the most vexing problems of the nuclear industry 
with what we call the triple crown of nuclear safety.
    In a case of a loss of all sources of electricity at the 
plant, the NuScale Power module shuts itself down and cools for 
an unlimited period of time. With no operator action required, 
no need for additional water and no electricity.
    The NuScale Power module uses simple properties of physics, 
convection, conduction and gravity to drive the flow of coolant 
in the reactor. The thermal hydraulic properties and 
capabilities of technology have been demonstrated through an 
extensive test program inspected by the U.S. Nuclear Regulatory 
Commission and which are protected by patents issued or pending 
since 2011.
    The NuScale Power module is an ideal option for carbon-free 
electricity generation. The NuScale design is dramatically 
smaller than today's pressurized water reactors and eliminates 
need for safety-related, electrically-driven pumps, motors and 
valves necessary to protect the nuclear core. It can be 
factory-manufactured and transported to a site via rail, truck 
or barge.
    We are preparing for our first deployment project, known as 
the Utah Associated Municipal Power Systems Carbon Free Power 
Project, which will be sited in Idaho and possibly a location 
on the Department of Energy's Idaho National Laboratory site.
    We expect to deliver our first project of 12 modules in a 
600 megawatt plant to UAMPS for an overnight price of less than 
$3 billion with commercial operation commencing in 2024.
    Energy Northwest which operates the Columbia Generating 
Station in Washington State, has joined this project and holds 
a first right of offer to operate the UAMPS project.
    In December 2013 the Department of Energy selected NuScale 
as the sole awardee for funding in round two of the DOE Small 
Modular Reactor Licensing Technical Support Program focusing on 
providing a cost share grant in support of licensing expenses. 
NuScale may receive up to $217 million of matching funds over 
five years. We are the only near-term deployable SMR developer 
receiving DOE funding support, and we are proceeding at full 
speed toward long-term commercialization.
    With support from this funding NuScale has expanded its 
workforce to include more than 600 engineers and has made 
substantial progress on the engineer and analysis and tested 
needed to complete the design certification application for 
submittal to the NRC by the end of 2016. Successful completion 
of the DOE-funded SMR cost share program depends on sustained 
congressional support through continued appropriations. We 
appreciate your past support, and we ask that you continue to 
prioritize small modular reactor programs in a tight budgetary 
environment.
    A risk to the delivery of our technology as currently 
planned is the uncertainty of the time and process for the NRC 
design certification and combined operating license efforts. In 
order to meet our customer needs to deliver carbon free 
electricity to their grids, we must be positioned for 
commercial operations in 2024.
    NuScale has been engaged with the NRC in pre-application 
review efforts since April 2008. We are on schedule to submit 
our design certification application by the end of this year, 
and the NRC plan currently reflects a 40-month review process. 
We are currently working with senior staff at NRC to complete 
the final issuance of the new scale design specific review 
standard expected by the end of June 2016 which provides the 
acceptance criteria for their review of our DCA.
    We appreciate the quality interactions we continue to have 
with the Office of New Reactors and their dedication to a 
thorough and timely review. It is important that sufficient NRC 
resources are assigned to review in a NuScale application to 
ensure completion within the 40-month schedule so that we can 
be in position to meet the growing marketplace demands for our 
carbon free energy source.
    I'd like to thank the Committee for holding this important 
hearing. And I look forward to any questions you may have.
    Thank you.
    [The prepared statement of Mr. Hopkins follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Hopkins.
    Mr. Kuczynski, welcome.

 STATEMENT OF STEPHEN KUCZYNSKI, CHAIRMAN, PRESIDENT AND CHIEF 
  EXECUTIVE OFFICER, SOUTHERN NUCLEAR OPERATING COMPANY, INC.

    Mr. Kuczynski. Welcome.
    Good morning, Chairman Murkowski, Ranking Member Cantwell 
and members of the Committee. My name is Steven Kuczynski. I'm 
the Chairman, President, CEO of Southern Nuclear Operating 
Company. We operate a fleet of six nuclear power reactors at 
three sites and are constructing two state of the art AP1000. 
That's Advance Pass of 1000 reactors at Plant Vogel near 
Augusta, Georgia.
    It's an honor to appear before this Committee to share my 
views on advanced nuclear technologies, an area that is pivotal 
to our nation's future and worthy of this Committee's interest.
    I currently serve as Chairman of the Nuclear Energy 
Institute Advanced Reactor Working Group, or ARWG, an industry 
initiative created with the understanding that today's 
decisions about nuclear energy, research and development will 
enable a nuclear fleet of the future. Today the U.S. fleet of 
100 commercial reactors which provides 20 percent of the 
nation's electricity is comprised exclusively of light water 
reactors. They are called light water reactors because they use 
ordinary water for cooling purposes and to moderate the nuclear 
chain reaction.
    In some other countries, such as Canada, deuterium oxide is 
the main coolant to moderator. Deuterium oxide is heavier than 
water which is why these reactors are commonly known as heavy 
water reactors.
    Taken together light water and heavy water reactors have 
proven to be the safest, most efficient, cost effective means 
of electricity generation.
    Within the ARWG we see tremendous promise for even better, 
more innovative nuclear reactors, and we are actively working 
toward achieving demonstration of multiple advanced reactors by 
2025. We believe commercial deployment is feasible by 2035.
    Advanced reactors are often called non-light water reactors 
because they do not use water as a coolant or a moderator but 
neither do they use heavy water. Instead, advanced reactors 
under consideration in the United States are being designed 
around the use of liquid metals, salts, gases or other advanced 
techniques.
    At Southern Company we are actively engaged in researching 
and assisting in deployment of advanced reactor technologies 
including the prismatic block high temperature gas cooler 
reactor which is expected to be significantly more efficient 
than current operating reactors and the molten chloride fast 
reactor which we are exploring under the DOE Advanced Reactor 
Concepts Program alongside TerraPower, Oak Ridge National 
Laboratory, the Electric Power Research Institute and 
Vanderbilt University. We are very proud to be working with 
these distinguished organizations.
    So one might ask, why support advanced reactor research and 
development?
    We know that significant new electric generating capacity 
will be required in the decades ahead to meet the nation's 
growing energy needs. Nuclear power is an attractive option for 
meeting this demand with reliable, affordable, clean sources of 
base load electricity with zero emissions. And advanced 
reactors will be even more efficient, produce less by product 
material, have enhanced safety features, require even a smaller 
geographic footprint, come at a lower cost to customers and be 
capable of using a broad range of fuel types.
    In addition, advanced reactors are expected to be scalable, 
meaning they can be constructed in varying sizes, and able to 
adjust output to meet variable demands or supplement 
intermittent renewables. They will also provide a valuable 
source of process heat for a wide range of industrial 
customers, and we see tremendous promise for military 
installations to use these technologies to generate electricity 
and provide energy to meet other needs.
    In addition to the work we're doing with Gen IV reactors, 
Southern Nuclear is engaged with the industry's effort to bring 
small modular reactors to market.
    In closing I'd like to highlight five key points for the 
Committee.
    First, collaboration between the Federal Government and the 
private sector will be critical to promoting nuclear energy 
innovation in the United States. As was true in the early days 
of nuclear technology development, the national labs will need 
to play a central role. Importantly, the national labs have the 
resources and facilities, as well as the flexibility within the 
existing regulatory structure to accomplish significantly more 
advanced R and D work than a private U.S. company or university 
could do alone.
    Second, the Federal Government needs to move forward with 
innovative licensing frameworks and regulatory structure 
tailored for advanced reactors. The current regulatory system 
with its exemption based licensing approach built around light 
water reactors will be ineffective for licensing non-light 
water technologies, makes it difficult to attract private 
investment. Southern Company is taking a lead role in industry 
led licensing modernization initiatives.
    Third, innovation benefits from competition which is why 
the Federal Government should support advanced reactor programs 
without picking the ultimate winners and losers at this point.
    Fourth, the U.S. must remain the global leader in nuclear 
energy technology, as we have been in the past. Many nations 
are currently working on advanced reactor designs. Our nation 
should not cede leadership in nuclear power innovation to 
others.
    Finally, the ARWG's goal of commercial deployment by 2035 
is, in my view, achievable. With the current fleet of reactors, 
it took just a decade to progress from a concept to commercial 
operation. This required innovation, collaboration, leadership 
from forward thinkers like Admiral Rickover and the strong 
support of Congress and the Executive Branch.
    Our nation has the knowledge and expertise to make this 
kind of technological progress in nuclear energy happen again. 
As before, innovation and collaboration will provide the keys 
to success.
    Again, thank you for allowing me to appear before your 
Committee, and I look forward to your questions.
    [The prepared statement of Mr. Kuczynski follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Kuczynski.
    Dr. Peters, welcome to the Committee.

    STATEMENT OF DR. MARK PETERS, DIRECTOR, IDAHO NATIONAL 
                           LABORATORY

    Dr. Peters. Thank you. Thank you, Chairwoman Murkowski.
    Thank you, Chairwoman Murkowski and Ranking Member Cantwell 
and members of the Committee for this opportunity to speak to 
you today. I am Mark Peters, Director of the Department of 
Energy's Idaho National Laboratory (INL), the lead national 
laboratory for nuclear energy.
    I'm pleased to participate in this most distinguished panel 
before the Committee, and I'll request that my written 
testimony be made part of the record.
    The Chairman. It will be included.
    Dr. Peters. Before I begin my testimony, I'd like to thank 
Senator Risch for his support of INL and for co-sponsoring the 
Nuclear Energy Innovations Capability Act, authored by Idaho 
Senator Crapo, Senator Booker and Senator Whitehouse. This 
legislation, as part of the Senate Energy bill, is the 
companion to the House measure of the same name. The House and 
Senate legislation are important enablers to much of what I 
will discuss today.
    The U.S. is widely recognized as a world leader in the 
development of advanced nuclear reactors; however, leadership 
is earned, not granted and other nations are investing to 
develop the facilities, capabilities and people necessary to 
excel. The U.S. has the opportunity to regain domestic 
manufacturing and supply chain capabilities lost when we did 
not build new reactors during the last 30 years.
    Small modular reactors and advanced nuclear reactors can be 
entirely sourced in the U.S. creating new advanced 
manufacturing facilities vital for economic growth.
    The value proposition for U.S. nuclear energy has never 
been stronger. There are strong global and domestic interest in 
nuclear energy due to the recognition that safe, secure, 
reliable and affordable energy is the engine for economic 
growth, prosperity and quality of life.
    The U.S. cannot meet increasing electricity demand and 
stringent clean air goals with renewable energy alone. In this 
effort nuclear and renewables become complementary. Safe and 
reliable nuclear energy provides 19 percent of total 
electricity and 63 percent of the U.S. electricity sector's 
carbon-free generation today.
    We are on the cusp of a fundamental transportation in 
nuclear energy. The existing light water reactor fleet will 
serve as a bridge to SMRs and advanced reactor technologies. We 
have developed tremendous expertise in operating light water 
reactors at the highest level of safety and efficiency and that 
expertise is relevant to advanced reactor design and 
operations.
    Our conversations with advanced reactor developers 
indicated challenges in two main areas: resolving technical and 
licensing challenges at an early stage and addressing remaining 
technical licensing and economic questions at the demonstration 
and deployment phase.
    In November the Administration announced formation of the 
Gateway for Accelerated Innovation in Nuclear, the GAIN 
Initiative. GAIN will provide the people and facilities to 
develop and test key components and mitigate uncertainty while 
allowing developers to fine tune their designs.
    Resolving technological risks can give investors the 
confidence to move forward with increased financing for an 
advanced reactor design. As a core part of GAIN, INL and our 
national laboratory and university partners are the portal for 
designers and developers interested in a wide range of DOE 
nuclear energy related capabilities and expertise.
    For the later stage commercialization, companies may access 
INL and other government sites for demonstration and deployment 
capabilities which can reduce costs and improve performance of 
their design as it moves to full commercialization.
    An example of this is the recent announcements related to 
potential siting of a NuScale SMR in the INL site which will 
provide a near-term opportunity to provide a demonstration 
platform for innovative nuclear technologies.
    New types of industry partnerships are also driving 
strategic investments. For instance, INL is working 
cooperatively with TerraPower to build new capabilities to 
provide R and D support for the traveling wave reactor concept 
Dr. Gilleland discussed earlier.
    The experimental fuels facility at INL's materials and 
fuels complex has gone a transformation in recent years to 
expand capabilities for the traveling wave reactor.
    Madam Chair, we are creating a new paradigm in nuclear 
innovation and nuclear energy. This paradigm involves new ways 
of working with the diverse nuclear community that includes 
utilities, startups, large nuclear suppliers, government 
entities, non-profits and everyone on this Committee. We are 
your national laboratories, and we're open for business.
    Recent White House and DOE initiatives as well as 
congressional legislation and funding are setting the stage for 
research, development and deployment of new and advanced 
nuclear energy systems. The end result will mean cleaner, more 
plentiful energy with the potential for lifting billions out of 
energy poverty.
    Thank you for inviting me to testify, and I look forward to 
your questions.
    [The prepared statement of Dr. Peters follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you all, I appreciate the testimony 
this morning and your leadership in these areas.
    Thinking about the exciting developments and the prospects, 
and Dr. DeWitte, your focus on micro-reactors is really quite 
exciting for a place like Alaska where we are not connected to 
anybody else's grid. You have to have some level of 
scalability. You have to be able to take it down to small 
communities or perhaps with our military installations. I look 
at this and see there is room for extraordinary potential.
    As with any good idea though, you have situations relating 
to the financing and you have a regulatory process; so I want 
to start with my questions this morning on the regulatory 
aspects.
    Mr. Hopkins, you probably have as much experience as 
anybody with NuScale in terms of the process that you have gone 
through. You have been underway for about 15 years working with 
the NRC since 2008. As you have outlined it, my take away is 
you think that you are able to work within the NRC licensing 
process as it is.
    Mr. Kuczynski, you have suggested that there are some real 
challenges within the process as it exists today taking these 
new technologies and basically trying to make them fit within a 
structure that has been designed for basically a different 
model or a different approach.
    I would like to have a more full discussion on this issue 
of whether or not we need to see this licensing framework 
restructured, to be more adaptable to recognize that we have a 
whole range of different technologies that we are considering 
right now. Recognizing that time is money, what do we do with 
the regulatory process as it exists now?
    I kick that out for general discussion.
    Mr. Hopkins, Mr. Kuczynski, go ahead.
    Mr. Hopkins. Senator, we have been working with the NRC, 
since 2008. However, there are differences between our small 
modular reactor and a large plant. There are exceptions.
    As an example, we don't have any hydrogen production 
because we're oxygen starved in our reactors; therefore, we 
don't need a hydrogen re-combiner.
    So there are things that we are working with the NRC, which 
takes a lot of time and effort, to get them understanding what 
those differences are. We typically do what's called topical 
reports. So any of these variances that we see we write a 
technical paper for review by the NRC. And so far, I think 
we've submitted eight or nine of these topical reports. I 
believe we have 15 to submit.
    But we view our opportunity here, as was mentioned earlier, 
to help pave the way for the next Gen IV advanced reactor 
because as the NRC stays focused and understands the nuances 
and change. Although we are a light-water reactor, which 
they've known the technology for 50 years, there are nuances 
that are different in small modular reactors.
    Our hope is, as we go through this process which we 
budgeted right now in the neighborhood of $50 to $60 million, 
to go through design certification application, we'll also be 
able to enhance the advanced reactors going through, as you 
mentioned, the gold star or the gold plate of the NRC.
    The Chairman. So you are paving the way for others, but I 
am sure that there are a lot of others sitting back and 
watching the NuScale process going forward saying maybe we do 
not want to be number two, maybe we want to wait until the 
process is a little more complete, having to produce these 
assessments or these analyses every step of the way.
    Mr. Kuczynski, you have mentioned that Southern is looking 
into a more innovative licensing process. What are you 
recommending?
    Mr. Kuczynski. Yes, let me clarify and thank you for that 
question. I'll tag onto what John has to say.
    In my opening remarks I talk about light-water technology, 
and the SMR that NuScale is building is a light-water 
technology, just a different type. So the existing regime is 
probably more suitable than it will be for advanced reactors.
    And so, my comments are around what we are all calling now, 
modernizing the regulatory, kind of, regime. And through a lot 
of work with a lot of groups, we've all, kind of, landed on, I 
think, kind of, four cornerstones of what we think needs to be 
done in the regulatory arena.
    One, it does need to be modernized to accommodate fuels 
that are completely different, designs that are completely 
different, outside of our knowledge base.
    So there are really four things we're talking about. First 
being a more performance-based, meaning just set the 
expectation of what these products need to deliver and let the 
innovators figure out how to do it versus a really prescriptive 
approach. Second is bringing a more risk informed basis into 
the whole regulatory regime. The third one is really around a 
staged process and there's a number of reports out there that 
talk about trying to retire the technical risk in a more staged 
process instead of all the upfront investment without certainty 
of whether those kind of design concepts will be approved. And 
then the fourth one is really modernize a framework to be 
technology inclusive so that it doesn't focus just on light 
water technology.
    What is very good though is as we progress in the SMR 
licensing activities, it really builds on our Generation 2, our 
advanced passive reactors, and that there are some generic 
issues that, we believe, will be resolved through the SMR 
licensing process that has a direct relationship to advanced 
reactors. Things like the emergency planning zones, 
containment, security, control room staffing, those are very 
good generic issues that, as John said, can pave the way for 
resolving some of these before advanced reactors need to be put 
together.
    The Chairman. Alright, thank you.
    Dr. Gilleland, I am well over my time, but if we have an 
opportunity to continue this, I would like to gain more 
information.
    Senator Cantwell, please go ahead.
    Senator Cantwell. Thank you. Thank you, Madam Chair.
    Dr. DeWitte, on behalf of Senator Alexander and myself, 
since you mentioned visiting museums as a young child, we 
invite you to visit the Manhattan Project, the B reactor in the 
State of Washington. I am sure Senator Alexander will extend 
his own invite to you.
    The reason I am bringing that up is because, I think, you 
crystallized in your testimony the opportunity, how big of an 
opportunity, this was in the past. And, as you said, the giants 
that we stood on like Fermi.
    My question is really to you if you want to weigh in, but 
also to Dr. Gilleland and Dr. Peters. This China market which I 
am a big fan of the U.S. trying a clean energy strategy just 
because they're 40 percent of the energy use. So anything we do 
together helps accelerate the deployment. They are now 73 
percent dominated by coal. Could you talk about the market 
opportunity for the new reactors?
    Dr. Peters, could you also talk about this new materials 
development, the research and development on new materials that 
would help us on our current, the development of new materials 
and how that helps us in reaching this market opportunity?
    Dr. Gilleland. Well, certainly working with China is a good 
thing for the United States because it is the huge market. It's 
the dominant market in the world. They're going to build tons 
of reactors and maybe someday hundreds.
    Our motive, of course, was to work with China because it 
would make the most difference on the emissions front and they 
are set up to proceed with actually trying out these new 
reactors. So we have a joint venture which we're about to sign 
the CNNC to proceed with a prototype.
    Our motive here also has been to keep the United States in 
the game, as it were, because I think we have this unique 
combination of capabilities between the national labs and our 
way of doing things rapidly and entrepreneurially and 
innovatively. And so, that combination is, I think, very, very 
powerful.
    Now the agreement would involve us being equal partners. 
Whatever gets built in China can be built in the United States. 
In the 2030's when we must replace the coal plants, I would 
hope to see a wave of construction and activity back in the 
United States.
    So it is a way for us to participate in the dominant 
market, make the biggest difference and equip ourselves to do 
the right thing in the United States.
    Senator Cantwell. The expertise of the labs helps us 
leverage this technology. So I want to bring in Dr. Peters 
here, that it is the labs that helps keep the supply chain in 
the United States, our skill level, our innovation, our 
technology. The supply chain would?
    Dr. Gilleland. Yes, there's nothing that keeps you more 
focused than trying to build something. Your dogma goes out the 
window because you're trying to solve real problems with a new 
type of reactor.
    And we have engaged about 50 institutions in the United 
States in a very focused way. And most of that hundreds of 
millions of dollars has gone to those institutions. It is the 
building of the supply chain, a very advanced supply chain.
    And I think in the future almost all of our advanced 
reactor activities will be international in nature. That's just 
the way the world is working right now. You look around the 
world where the energy is needed and where the emissions must 
be low and that's the message to us.
    So we have to get in there and try to lead. That's what 
this is all about.
    Senator Cantwell. Dr. Peters?
    Dr. Peters. Yes, thanks, Senator.
    So first and foremost let me completely support what you 
said that actually the national labs and universities in the 
U.S. are a differentiation and they remain a differentiation 
for us, as a country. Granted, manufacturing has wavered but 
the world still looks to us for that expertise. And so, that is 
an advantage that we still have.
    A couple of examples, and this isn't just at INL, I would 
also mention Oak Ridge, Los Alamos and PNNL as being/having 
expertise. But two examples. In the fast reactor space, much 
like what TerraPower is developing, you have either a metal or 
an oxide fuel depending upon how you want to manage your safety 
case. But we still have world leading expertise in both of 
those fuel types. That's some of what is being brought to bear 
in the case of the collaborations with TerraPower as they're 
developing a metal fuel for a sodium fast reactor.
    But also for high temperature gas reactors, Steve mentioned 
those TRISO fuels, so silicon carbide particle fuels. Oak Ridge 
has a world leading position there, and we support that as 
well.
    So when you look at the advanced fuels for these reactors, 
the expertise sits at the U.S. national labs.
    Senator Cantwell. Thank you.
    Thank you, Madam Chair.
    The Chairman. Senator Cassidy?
    Senator Cassidy. Thank you, Madam Chair.
    Mr. Hopkins, the SMRs, I was looking at your thing. You are 
still going to have it surrounded by 7.4 million gallons of 
water. I did not have time to do the math, but it still seems 
like although it is small and modular, it is only small 
relative to the current. But it is really still a substantial 
footprint, I presume?
    Mr. Hopkins. Actually sir, to your point, it's 7.2 million 
gallons. That's the ultimate heat sink that the module sits in. 
The actual footprint for a 600 megawatt plant is nominally 
about 32 acres. So you could expand that out to, let's say, 100 
acres or 150 acres, but the footprint itself is only 32 acres.
    So our sweet spot, we believe, in the United States quite 
frankly, is for coal replacement. So if you think of the 
majority of coal here in this U.S, it's been 300 to 600 
megawatts. We're hoping, in fact our first project is actually 
for coal replacement, is to be able to put in with the existing 
infrastructure a 600 plant, 12-module facility.
    Senator Cassidy. Now let me ask, I live near Entergy River 
Bend Nuclear Power Plant in Louisiana. I went and toured it, 
and they literally have a paramilitary force on hand for 
security with video surveillance of the fences. Every now and 
then they catch a raccoon trying to sneak in, that sort of 
thing. Will that be required for the SMRs?
    Mr. Hopkins. We're currently in discussion with the NRC. If 
you look at the actual footprint of the plant itself, the 
reactor building is a rectangle box. And so we believe if you 
look at the minimal number of entrances and exits, we could 
reduce that security plan, but that's still something we're in 
discussion with the NRC. So our general belief is the answer is 
yes, we can reduce that security force. To what number? We 
don't know at this time.
    Senator Cassidy. But would it still require 24/7 security?
    Mr. Hopkins. Yes, sir.
    Senator Cassidy. With AK----
    Mr. Hopkins. Well, there's new technologies that are out 
that we're looking at right now that are non-lethal 
technologies that some of the labs are currently working on. So 
we're exploring different options. But we----
    Senator Cassidy. Mr. DeWitte, would you require that same 
sort of security footprint? Because I can imagine you are 
someplace desolate, if there is a desolate place in Alaska. I 
am sure there is not. [Laughter.]
    Where you have this, sort of, small operation, but 
nonetheless it is radioactive material. Could somebody 
helicopter in, grab it and take off with it and make a dirty 
bomb?
    Dr. DeWitte. That's a great question.
    First, that leads me to just think the work that NuScale is 
doing to help answer some of these questions and leading the 
way on these things because the discussions they're having will 
inform how we approach this. Because fundamentally, when you 
think about what we're doing and our size, it's very similar to 
research and test reactors that are at college campuses across 
the country. They're very safe, very secure. Their security 
intervention usually involves relying on campus or local police 
to get there in a certain time period because the amount of 
material is so small.
    Fundamentally that's, kind of, the same approach that we 
believe we can take and still meet all the objectives, not to 
mention the fact that the material is very heavy and hard to 
get at and hard to deal with in order to actually divert to do 
something with it.
    Senator Cassidy. Okay.
    Mr. Kuczynski, you had mentioned, you used the word 
``affordable.'' But what I understand about what Southern 
Company is doing with nuclear, it is quite unaffordable.
    I asked an energy company why they were not doing what you 
all were, and they said listen, we can make ten natural gas 
plants for the cost of what they are doing, and they are 
cheaper to operate. Now I have learned to say what I have been 
told, not what I know. So I say that not to challenge, but just 
to say what someone else has said. Your thoughts about that? 
That natural gas, the economics of nuclear, at least the scale 
that you are doing right now does not work with natural gas?
    Mr. Kuczynski. Yeah, I would respectfully disagree about 
the economics and our working. Essentially our project, when we 
certified it about six years ago, we anticipated a 12 percent 
rate increase to our customer base. Currently today we expect 
that to be less than seven percent, maybe around six and a half 
percent.
    So this is a $14 billion project that's actually going to 
come in on a lower rate impact where customers, when we're 
completed, then when we start it, we think that's a phenomenal 
achievement. And----
    Senator Cassidy. I do not know how all this works in your 
business model, so again, I am asking not to challenge, but to 
learn. If somebody had built the equivalent number of natural 
gas powered plants at today's fuel prices, would it have cost 
$14 billion to generate the same? I think you have 2,000 
megawatts.
    Mr. Kuczynski. Yes, of course it would be less. But you 
make a big assumption about today's fuel prices. If you take a 
levelized approach, equalize it over 40 to 60 years, there 
isn't anybody that would give you a contract on 40 years on gas 
prices.
    So we diversify our fuel mix in an effort to do clean, 
safe, reliable and affordable energy for the long-term and you 
need a diversification of fuel supply. We cannot be all gas.
    In fact, our fleet has now transformed itself from less 
than 20 percent gas to over 55 percent gas by just fuel 
switching. So our ability to switch fuels based on the 
economics is a tremendous advantage for Southern Company, and 
that's why electricity rates are among the lowest in the 
country and reliability is the highest. And that's why we're 
able to attract economic development in our part of the 
country.
    So we're huge proponents of nuclear. It's stable, strong, 
reliable. And this plant is going to be around for 60, likely 
80, years, with very, very stable cost bases.
    Senator Cassidy. If I might ask though, the $14 billion 
that you are, for the 2,000 megawatts, how much would it have 
cost to do that with natural gas-fired plants?
    Mr. Kuczynski. Yeah, I'm not an expert at that at this 
point in time. I can get back to you afterwards.
    Senator Cassidy. Please.
    Mr. Kuczynski. But essentially you have to look at it not 
on today's fuel prices. And we've done the economic analysis 
with nine different scenarios and nuclear. Continuing our 
project is, by far, the most economic result to date for our 
project.
    Senator Cassidy. Thank you.
    I yield back.
    The Chairman. Thank you.
    Senator Heinrich?
    Senator Heinrich. Madam Chairman, I want to thank you for 
this hearing. I think it is important that we look at advanced 
fission technologies. I also want to suggest that it might be 
useful, at some point, to have a second hearing on the status 
of nuclear fusion research as well where there are some pretty 
exciting developments, particularly around new materials 
developments and super conducting magnets at places like MIT.
    I want to start with Dr. DeWitte. First off, where did you 
get your donuts? I think that is an important question.
    Dr. DeWitte. Johnson Donuts. [Laughter.]
    Senator Heinrich. Excellent, very good answer.
    More to the point today, can you talk a little bit more 
about the design that you are pursuing, where you are in that 
process? And then what are the implications for things like 
fuel and spent fuel or waste, I should say, because you 
mentioned you are using spent fuel as your fuel source? So what 
does your waste stream look like and what are the challenges of 
dealing with spent fuel which is, obviously, highly 
radioactive?
    Dr. DeWitte. Sure. Thank you for the question, Senator.
    So a couple things. We launched in 2013, and we've been 
working on this for a few years prior. And the reason we 
started on this very small concept is because we surveyed the 
field and saw that the economic opportunities of going small 
and starting off grid were very favorable, economically, for 
doing nuclear at these sizes, as well as the fact that it was a 
manageable approach to a new technology from a start ups 
perspective. Starting something small like that gave us a 
vector on how to tackle these issues.
    So we've completed our confirmatory testing on what we're 
aiming to do with the system and completed verification and 
validation testing on full scale heat transport. We're moving 
into building an exact scale non-nuclear prototype later this 
year that will complete our transient testing on other things, 
much, similar, very similar, to the work that NuScale did 
several years ago building up the prototype testing plant.
    One nice thing about us though is we're so small we can do 
everything at the exact scale. So that helps.
    We anticipate submitting a license to the NRC sometime 
around 2018/2019, a license application, I should say. And what 
we would like to do is have our first reactor deployed in the 
very early 2020s. And we'd love to go as fast as we can to do 
that. But that's, kind of, the nominal targets we've set.
    In terms of dealing with the fuel, we anticipate the very 
first reactors will be fueled with normal enriched uranium, low 
enriched uranium. Because of the difficulties in dealing with 
spent fuel, we don't really want to add that risk into the very 
first one. When I say risk, I mean technological risk, into the 
first reactor.
    Senator Heinrich. What kind of enrichment level?
    Dr. DeWitte. It's on the order of about 15 percent.
    Senator Heinrich. Okay.
    Dr. DeWitte. And mind you, these are very small reactors, 
so it's a small amount of fuel.
    But we do, we are interested in opportunities to help with 
the plutonium disposition issue going on with, specifically 
related to the MOX plant in South Carolina.
    Senator Heinrich. Right.
    Dr. DeWitte. That would not be as much of a technological 
reach and it would prove out a lot that we'd like to do with 
spent fuel.
    And there are some interesting technologies that we 
anticipate using to accelerate getting spent fuel into reactors 
for destruction and transmutation because what we do is we can 
fission all of the actinides over time. And what you're left 
with are fission products that normally have a half-life of 
about 30 years. So they're more or less gone in about 300 as 
opposed to the tens to hundreds of thousands with actinides.
    Senator Heinrich. Okay, thank you very much.
    I want to get back to this issue that Senator Cassidy 
raised about general economics. Dr. Gilleland, I think you 
mentioned affordable nuclear power, and certainly Mr. 
Kuczynski, you walked through this a little bit. But I am 
having a hard time reconciling a number of information points.
    I did a little bit of Google research this morning about 
this that is in the news, and one of those stories that came up 
was around two large reactors in Illinois that have light water 
reactors that have lost about $800 million over the past six 
years.
    I am trying to figure out what kind of unsubsidized, 
levelized costs per kilowatt hour is everybody targeting to 
ensure that these advanced technologies are actually 
competitive in the marketplace?
    For any of you really.
    Dr. Gilleland. Well certainly, as Bill Gates said all the 
way through from the beginning, if you can't afford it, it's 
all theory.
    But the fact of the matter is in the case of the traveling 
wave reactor. Since you eventually do away with enrichment and 
you never need reprocessing, since the reactor would reduce the 
amount of waste produced by about a factor of five, since the 
basic fuel would be depleted uranium which is already mined, 
there's enough at Paducah to power the United States' fleet for 
hundreds of years. You add all those things up and you end up 
with a lower price of electricity. I'm not a great economist, 
but if you don't have to do something it's less expensive.
    Senator Heinrich. Sure, but----
    Dr. Gilleland. And so the----
    Senator Heinrich. There is going to be----
    Dr. Gilleland. Levelized carbon.
    Senator Heinrich. A target in terms of a cost per kilowatt 
hour that makes sense. I mean, we are seeing PPAs now at 
ridiculously low prices compared to what we saw a few years 
ago.
    So I assume all of you have a goal for where you need to 
get to, to make sure that ten years from now as some of these 
technologies continue to come down the cost curve, that you are 
ahead of that.
    Dr. Gilleland. Yes.
    And our levelized costs, I don't have those right in my 
head right at the moment. They're in the range of seven to 
eight cents per kilowatt hour, that kind of range, roughly 
speaking.
    And we often compare to alternatives and since our system 
is so much simpler and since the waste produced is so much less 
and since the fuel is right now considered waste, that goes a 
long way.
    Some people confuse depleted uranium with spent fuel. Spent 
fuel is what's been used and it's now radioactive and is 
sitting around the country waiting for disposition. Depleted 
uranium is that vast quantity of uranium sitting behind 
enrichment plants. It's never seen a reactor. It's never been 
in one. Ninety something percent of all uranium mined is not 
useful as fuel.
    And our objective was to take a look at Paducah and these 
other fuels of uranium and say, if you can burn that you're up 
a factor of ten in your fuel supply, it's already mined. 
There's no CO2 in mining it. If you can burn it very 
efficiently with burn ups of 30 percent, several--an order of 
magnitude higher than present fission plants, then basically 
you're extending the fuel supply by about a factor of 40 to 50. 
And that's done without need for a proliferation prone 
processes such as reprocessing.
    The Chairman. Thank you.
    Senator Risch.
    Senator Risch. Well thank you very much, Madam Chair.
    Dr. Gilleland, your understanding of economics is a lot 
like a lot of us Americans but you need to spend a little more 
time with the government. [Laughter.]
    Senator Risch. When the Government was shut down here they 
told us by not doing it, it was going to cost us more than 
doing it. So it gets very complicated when you get into 
government economics as opposed to just plain old common sense 
economics.
    Dr. Peters, the advanced test reactor which is certainly 
one of our important facilities at the INL has been used for 
testing fuels for the Naval Nuclear Propulsion Program, and it 
has been very important in that regard. There has been some 
talk about how the ATR could be used to support the gateway for 
accelerated innovation for nuclear initiative. Could you talk 
about that for just a minute for us, please?
    Dr. Peters. Sure, thank you, Senator, thank you for the 
question. Good to see you.
    So as you already said the advanced test reactor has been 
operating since the 60s, and its core mission to this day is to 
support the nuclear navy and that continues. And also note that 
we have a line of sight to this machine being operating as far 
as 2050, if not beyond, to continue to support that mission.
    But there's already an existing part of the ATRs mission 
that's a part of the National Science User Facility that DOE 
funds that actually funds university researchers and industry 
researchers and other lab researchers to use some of the 
irradiation time at ATR to do work on our current nuclear 
energy system and also advanced nuclear reactor systems.
    So really, yes, it will be a part of the test bed. It's a 
good example, actually. ATR and the High Flux Isotope Reactor 
at Oak Ridge are two good examples of test reactors that will 
be an important part of the GAIN test beds.
    So and we're continuing to look to ways to, sort of, expand 
the capability of ATR to be able to be more responsive to 
industry needs.
    Senator Risch. Thank you, I appreciate that.
    I recently met with the people who founded the Transatomic 
Power where they are dealing with these new molten salt 
reactors which, I guess, is kind of new to me and probably not 
to you people who work in this on a daily basis. But what can 
you tell us about that briefly, about this technology?
    Dr. Peters. It's an exciting technology.
    Actually, the founders were at school with Jake, at the 
same time with Jake at MIT. So it's another example of some of 
these exciting startups that are emerging from the university 
community.
    It's a molten salt technology. It operates at high 
temperatures. It's a very exciting technology. It's early in 
its development, but it's a perfect example of an early stage 
company that needs access through things like GAIN to 
capabilities at the laboratories to be able to do testing and 
evolve their design.
    But, I mean, yes. There's--48 companies. Jake's being one, 
Transatomic being another that are out there with advanced 
concepts both fission and fusion, actually. And so the whole 
idea is to try to make sure that the labs are open to helping 
all of those companies at whatever stage of maturation they're 
in.
    But there's reasons to be very excited about Transatomic. 
Southern's, for example, working with Oak Ridge about molten 
salt technology as well.
    But when you look at the laboratories, the reactor 
technology sort of grew up through the laboratories in 
different ways. And actually the resident expertise in the 
laboratory system in molten salt tends to sit at Oak Ridge 
National Laboratory. They have a prominent capability there.
    Senator Risch. Thank you.
    Last, every time I visit the INL there is always a 
discussion about new talent coming into the pipeline. There 
does not seem to be as much interest as there should be in 
young students wanting to take on nuclear physics.
    Can you talk for a minute about the partnerships that the 
INL has formed with our universities in Idaho to try to nurture 
this and resolve this issue and move it along?
    Dr. Peters. Yes, sure.
    So we have partnerships with, close partnerships, with 
Idaho State University, University of Idaho and Boise State, 
but in the nuclear energy area, particularly with Idaho State 
University, and the University of Idaho. And so we're working 
actively with them to bring students to the laboratory so that 
the students are not only getting training/education at the 
institution but also understanding doing research at the 
laboratory and a lot of back and forth between the university 
and the lab.
    Also working with them to help devise their curricula in a 
more effective way to train the next generation. And that's a 
great partnership, but also, as part of the partnership that 
manages the laboratory, as you're aware, we have a national 
partnership. So we have other universities that are a part of 
that, part of the partnership that includes MIT, NC State, Ohio 
State, and University of New Mexico and Oregon State as well.
    And so there's a national picture as well.
    But I should say that, I mean, witness the guy at the end 
of the table down here. There's a change. The young people that 
are coming out today out of undergrad and grad school are 
looking to save the world and they're realizing that nuclear 
has got to be a part of it. I didn't feel like that was there, 
say 15 years ago, so I'm just really excited about it.
    Senator Risch. That is good to hear.
    Thank you so much.
    Thank you, Madam Chairman.
    The Chairman. Senator Manchin?
    Senator Manchin. Thank you, Madam Chair, and thank all of 
you.
    I will start with you, Mr. Kuczynski, since you are in the 
utility business.
    Do you agree with the EIA's forecast as far as an energy 
mix is going to be needed through 2040? And I guess, depending 
on whether the Clean Power Plan goes into effect or no, it does 
not. But they have, I think I can go a few figures. They had 
coal at 30, 32, 33 percent. You had natural gas at 30, 31, 32. 
Renewables at 18 and nuclear at 16. And even with the Clean 
Power Plan nuclear still stays at 16. That does not make sense 
to me. But do you agree with the forecast? Do you all see that?
    Mr. Kuczynski. We look at a number of forecasts whether 
they're out at APRI or EIA. We do know that we're headed to, I 
think, a carbon constrained future. That seems to be embedded 
in every, kind of----
    Senator Manchin. Do you all have concerns as Southern about 
the reliability of this system?
    Mr. Kuczynski. We do not have concerns about the 
reliability of the system. We have an extremely robust system. 
Part of being in a regulative, regulated vertical we are able 
to invest significantly in our systems. So despite, you know, 
severe weather in our area we have tremendous functionality in 
our transmission distribution.
    We do believe nuclear is going to play a role, and we think 
some studies show nuclear playing a much stronger role. And 
that is why we're participating in this area of advanced 
reactors because not only do we have a deployable, large scale 
base load that we have solved the engineering, regulatory and 
almost all the construction risk already with the AP1000.
    Senator Manchin. Let me ask----
    Mr. Kuczynski. It is ready to go. Advanced reactors could 
even expand us further. That's why----
    Senator Manchin. Will advanced reactors, will you be able 
to ramp up and ramp down as power demands?
    Mr. Kuczynski. Many of the advanced reactor designs----
    Senator Manchin. Because right now I do not think they do 
that, do they?
    Mr. Kuczynski. Are designed to do that. In fact, they could 
couple very nicely with the renewable energy sources.
    Senator Manchin. That is what has been so attractive with 
the natural gas because gas is easy to ramp up and ramp down 
and the others are not quite.
    Mr. Kuczynski. Right. Each energy resource has its own 
features.
    Senator Manchin. Okay. Does anybody else want to comment on 
that?
    Dr. DeWitte. I'll just add----
    Senator Manchin. Go ahead.
    Dr. DeWitte. Advanced reactors changed the paradigm for 
load following and responding to the grid needs. I mean, our 
system operates fairly easily between 10 and 100 percent power 
and fairly quickly.
    So it's an important feature, and it's going to change the 
economics, long-term, of what advanced nuclear reactors can 
bring to the table.
    Senator Manchin. You all are very much involved as far as 
in the development of the new technologies as far as how 
nuclear will be used or could be used within the system, 
correct? I mean, all of you, I think, are in some form of that.
    I am sure you have looked at other sectors and mine, in 
West Virginia, as you know, we do not have any nuclear power 
plants in West Virginia but we have a tremendous amount of 
coal-fired plants. We think that we do it as clean as possible 
and would like to even do it even more but we have no 
investment or no buy in at all from the Federal Government that 
is helping us to advance the technologies.
    Have you been looking at some of that or do you see some 
advancement in that arena? Again, I know you all have done----
    Mr. Kuczynski. We, as a company, are investing in clean 
coal technology.
    Senator Manchin. Coal.
    Mr. Kuczynski. With our Kemper facilities. You know, we are 
deeply embedded in trying to assure that that fuel source can 
meet our future energy sources.
    Senator Manchin. Yes, and we are watching you all, but your 
cost overruns are pretty substantial.
    Mr. Kuczynski. Yes, it's true. You know, first of a kind 
big projects.
    Senator Manchin. Right. That could be a cutting project for 
us to be able to use a dependable fuel, a reliable fuel such as 
coal for many years.
    Mr. Kuczynski. So as we get over those hurdles the 
technology will----
    Senator Manchin. Southern, I believe, has coal in the mix 
for quite some time, right?
    Mr. Kuczynski. Oh yeah, we, that was our predominant energy 
source for many years. It no longer is. Gas is our predominant 
energy source.
    Senator Manchin. Okay.
    It is my understanding that China will add 23 nuclear 
reactors by 2020 increasing its capacity from 2 percent to 15 
percent.
    I am interested to know more about your company of 
TerraPower, Mr. Gilleland, and its agreement with China's 
National Nuclear Corporation to build traveling wave reactors, 
or TWRs? Can you tell me what's so attractive about this 
contract or how it is going?
    Dr. Gilleland. It's going well. We've been at it for ten 
years. We're a few hundred million dollars into the effort. We 
have used about 50 institutions in the United States, including 
national laboratories, in this development.
    The State Department negotiated an agreement with us so we 
could freely exchange information with China, and that's going 
to be possible for other nations as well on the traveling wave 
reactor.
    The reason they did that for us is because eventually 
enrichment will not be needed and reprocessing will never be 
needed. That's where you take spent fuel and rework it again. 
People who analyze weapons proliferation risk say those are the 
two things that represent the greatest risk.
    So our goal was to come up with a reactor which could be 
universally and ethically exportable, as one professor put it. 
We are about to sign an agreement with CNNC to have a joint 
venture----
    Senator Manchin. Do you all plan on manufacturing in 
America or manufacturing overseas?
    Dr. Gilleland. It will be both places.
    Generally, the first of a kinds are predominantly built 
here. Certainly the research and the leadership and the 
management of the joint venture will be the United States.
    We plan to have the beginning of construction in 2018 or 
thereabouts with the first prototype plant going into 
operation----
    Senator Manchin. Yes.
    Dr. Gilleland. In 2025 or 2026. The first commercial units 
will come a few years after that.
    The important role that the national labs are playing here 
is in the materials, development and testing. So are the 
universities.
    Senator Manchin. My time is running out, sir. I am so sorry 
to cut you short on that.
    Dr. Gilleland. Okay, sorry. Go ahead.
    Senator Manchin. But if I could just ask one question?
    Do you all believe that coal along with nuclear power is 
going to be needed for quite some time to guarantee the base 
load that is needed for this country? Do you all have any 
opinion on that at all? Anybody, just really quickly, if I may 
ask?
    Mr. Kuczynski. In our long-term study, coal still is a 
factor in our long-term generation mix.
    Senator Manchin. As far as base load, you've got coal.
    Mr. Kuczynski. Correct.
    Senator Manchin. Coal and nuke, right, for base load?
    Mr. Peters, do you agree?
    Dr. Peters. Well yes, I think, but I'd also put in the plug 
for clean coal and continued----
    Senator Manchin. Oh no, no, no, we're----
    Dr. Peters. Yeah, no, but innovation, including going to 
carbon capture and sequestration.
    Senator Manchin. So basically for the reliability of the 
system----
    Dr. Peters. Right.
    Senator Manchin. Coal is going to be needed the same as 
nuclear is going to be needed, correct?
    Dr. Peters. As a bridge to a future that, I think, looks 
quite different.
    Senator Manchin. Okay.
    Dr. Peters. It's probably a very long bridge.
    Senator Manchin. You are talking about beyond 2040, 2050.
    Dr. Peters. Yes, 2040, 2050.
    Senator Manchin. Maybe you all could talk to the 
Administration and make them understand that. We would really 
appreciate it if you could.
    Thank you.
    The Chairman. Thank you, Senator Manchin.
    Senator Alexander?
    Senator Alexander. Thanks, Madam Chairman, and thanks to 
the witnesses for coming.
    Mr. Kuczynski, we have a couple of questions from Senators 
about cost. It costs TVA about $8 million to build 860 
megawatts, and they built it in a year, I think. So it is 
costing you $14 billion to build 2,000 megawatts, right? That 
is a lot more expensive. The gas plant probably lasts 20 or 30 
years. Is that about right? And the nuclear plant could last up 
to 80 years.
    Mr. Kuczynski. Up to 80, correct.
    Senator Alexander. And then you have the long-term cost of 
fuel which we do not know about, except we do know it has been 
a lot higher not long ago.
    So my point is that even though at first $14 billion for 
2,000 megawatts of nuclear does not compare very well with $2 
billion for 2,000 megawatts of gas, if you take the length of 
time the plants might last and the importance of diversity in a 
big utility like yours, it does make sense to go with nuclear 
power.
    Mr. Kuczynski. We fully agree with, kind of, that summary. 
And 14 is full carrying cost, not overnight costs so----
    Senator Alexander. Let me ask you something else. Senator 
Heinrich mentioned the Illinois plants that were losing money. 
Exelon probably owns those plants. They are a merchant utility, 
right? And you are an investor-owned utility, is that correct?
    Mr. Kuczynski. Well they're investor-owned also, they're 
just in an unregulated market----
    Senator Alexander. They are in an unregulated market, and 
you are in a regulated market.
    Mr. Kuczynski. Correct.
    Senator Alexander. Exelon has testified that because of the 
size of the subsidy for wind power that basically, at some 
times, the wind producers in its region can give away its power 
to Exelon and still make a profit forcing Exelon to buy the 
wind power and not the nuclear power, making the nuclear power 
less viable.
    Is the big wind subsidy that has been on the books for 23 
or 24 years a deterrent to the expansion of carbon free nuclear 
power?
    Mr. Kuczynski. Yeah, I think the industry, you know, 
supports Exelon's position in those markets where it's not a 
true competitive market, and I think those of us that support 
nuclear believe we can compete in a levelized market that has 
an equal playing field.
    I think in Illinois there is an over capacity. There's a 
lack of low gross and of subsidies and the massive growth in 
wind has just changed the dynamics of that market, and it's had 
unintended consequences with regards to those reactors.
    Senator Alexander. Let's talk for a moment about the amount 
of money.
    Here we have a number of people who are engaged in clean 
energy research. We are talking about carbon free electricity 
that is reliable and at a reasonable cost. We have seen what 
has happened in other big countries, Germany and Japan, when 
they did not use nuclear power, and we saw the consequences on 
their manufacturing capacity.
    But coming back here, we spend, according to the 
Congressional Budget Office, about $9 billion last year and 
this year on subsidies for wind, $9 billion. We spend about $5 
billion on energy research, as a government.
    Mr. Gates and others, including me, think we should double 
the amount of money we spend on energy research from $5 billion 
to $10 billion as rapidly as we can. That would permit people 
like you, or that would encourage people like you, to create 
new forms of clean, carbon free electricity. We might even find 
a way to have an economical method of capturing carbon from a 
coal plant or a gas plant which would be the Holy Grail, it 
seems to me, of carbon free electricity.
    But even if you do not do that, my question to any of you 
is, wouldn't it be a better idea to phaseout this wind subsidy 
after 40 years, it is a mature technology according to the last 
Energy Secretary, and spend that $5 billion a year on energy 
research? We could instantly double the amount of money the 
United States spends on energy research if we did that. 
Wouldn't that be a better use of our money?
    Dr. DeWitte. I'll jump in and say----
    Dr. Peters. Senator, they're going to ask the national lab 
guy to answer that question. [Laughter.]
    So I guess I'm going to beg off on the part about where the 
money comes from.
    Senator Alexander. Well don't do that. I want an answer to 
the question.
    Dr. Peters. Alright.
    Senator Alexander. Are you going to continue to waste $5 
billion a year on subsidies for that technology, or if somebody 
else wants to answer that, or are we going to spend it on 
encouraging people like you to create advanced reactors and 
small reactors or other forms of clean----
    Dr. Peters. Senator, I think that if we increase the clean 
energy research funding, I have no doubt that we will unleash 
innovation and we will transform the energy sector.
    Senator Alexander. Yes.
    Dr. Peters. So increasing clean energy funding absolutely 
has to happen, but again I think it's outside of my purview to 
comment on where the money comes from.
    Dr. Gilleland. Being a very unpolitical guy, the answer is 
yes.
    Senator Alexander. Thank you.
    Thank you, Madam Chairman. [Laughter.]
    The Chairman. Dr. DeWitte, did you want to jump in there?
    Dr. DeWitte. I was just going to say what John said, yes.
    The Chairman. Okay, you got your answer.
    Senator Franken?
    Senator Franken. I would yield my time right now to Angus.
    The Chairman. Thank you.
    Senator King?
    Senator King. First, Senator Alexander, my understanding is 
that the wind PTC that was extended in the last deal at the end 
of the year phases out over five years. I think what you are 
seeking is actually happening. That is my understanding. I may 
be incorrect about that.
    Senator Alexander. Well that may be true. But in the next 
two years it is $5 billion a year, and that is exactly the 
amount of money we would like to have to double our energy 
research.
    Senator King. I guess it is a question of what does phasing 
mean? It is phased out over a period of time. That was what was 
decided at the end of the year.
    Anyway, I was very interested in Mr. Kuczynski, is it? You 
said you wanted to play on a level playing field. Are you 
advocating today that we repeal the Price Anderson Act and the 
nuclear industry should have to pay the full cost of insurance? 
That is what you said, I think, you want a level playing field.
    Mr. Kuczynski. Yes, I was more recognizing, kind of, the 
current subsidies that are in play and----
    Senator King. And Price Anderson is not a subsidy? Of 
course it is a subsidy.
    Mr. Kuczynski. We don't necessarily consider it a subsidy. 
It's not been utilized----
    Senator King. It walks like a duck, it is a duck, it is a 
subsidy. If you had to buy that insurance it would cost you a 
fortune, is that not correct? Yes or no?
    Mr. Kuczynski. The industry pulls----
    Senator King. No. Yes or no? If you had to buy insurance on 
the commercial market for your plants would it not cost you a 
lot of money?
    Mr. Kuczynski. I have not researched on exactly what that 
price would be.
    Senator King. Okay, so if you are not too worried about it 
then will you tell the Committee you think we should have 
repealed Price Anderson?
    Mr. Kuczynski. I think Price Anderson has been a valuable 
part of our energy strategy for 50 years.
    Senator King. I will say it is, but it is a subsidy.
    Now in your $14 billion for your plant, were there any 
other subsidies?
    Mr. Kuczynski. We have utilized----
    Senator King. Do you receive subsidies from the Federal 
Government?
    Mr. Kuczynski. Yes, we have utilized, the way we believe 
subsidies ought to be utilized and for emerging technologies to 
get them restarted. So subsidies are----
    Senator King. How much of the $14 billion was Federal 
subsidy?
    Mr. Kuczynski. Well, we have not taken any direct 
subsidies. The only thing we have used to this point is loan 
guarantees which is technically not a subsidy, it's a financing 
mechanism that the Federal Government will be reimbursed for 
all financing costs.
    Senator King. Okay.
    Mr. Kuczynski. So we have not used any other subsidies, 
directly, for our projects.
    Senator King. I am inclined to agree with you on that. 
There were no direct subsidies of that $14 million. That is 
your testimony?
    Mr. Kuczynski. Correct.
    Senator King. Okay.
    Dr. Cassidy is gone, but as I do the calculation, pretty 
straight forward, $7 million a megawatt for your plant. Two 
thousand into $14 billion.
    Wind, which I know something about, $2 million a megawatt. 
Gas, between $600,000 and $700,000 a megawatt. So a huge 
differential.
    I am not anti-nuclear. I like Maseratis. I just cannot 
afford them.
    I do not understand any economic theory other than 
assumptions about natural gas prices that your power is going 
to be economic in the immediate future. Now if you do an 80-
year calculation and you assume very high gas prices and no 
problems with disposal and waste disposal and all those kinds 
of things, I suppose you can make it work. But frankly, I just, 
again, I am not anti-nuclear, I just do not know how we can 
afford it.
    Can anybody answer that question? The numbers do not work. 
Seven million dollars a megawatt? That is verses half a million 
or three quarters of a million, I mean, per megawatt for gas 
and $2 million for wind?
    Dr. DeWitte. I think there's a couple things that are 
important to highlight there.
    Senator King. I know the cost of gas is a factor, and that 
has to be. I clearly understand that.
    Dr. DeWitte. Right, that and the fact you have capacity 
factors that do matter. Nuclear having excellent performance 
capabilities, delivering about 90 percent of their--capacity 
which is a big difference from what you see with typical 
renewables.
    Senator King. Sure.
    Dr. DeWitte. But it's also not nuclear verses renewables. I 
think that's an all too often, I think, pitted argument.
    Senator King. No, no. That is why I put gas into the mix. I 
am just taking a range.
    Dr. DeWitte. Right. And I'll say the other thing I would 
add to that is that advanced reactors do have the opportunity 
to fundamentally shift the economic paradigm of nuclear power. 
The advanced reactors usually don't operate at high pressures, 
use far less steel, far less concrete and they have a huge 
economic potential in terms of achieving costs that are more 
competitive.
    Senator King. I agree with that. I think one of the great 
mistakes we made in this country in the nuclear industry was 
having each plant being an individual plant with its own unique 
design rather than a standardized design. Is this something we 
are moving toward is some kind of standardized design?
    You are nodding. Is that? Could you?
    Dr. Peters. The industry, the industry and NRC have already 
moved to that, Senator. And that would be part of the continued 
reform of the licensing process. When we go to advanced 
reactors the idea would be to not have it every design, you 
know, you have a design certification process up front, then 
you're simply licensing a site, constructing the same reactor.
    Senator King. Right, and you can modularize.
    Dr. Peters. Yeah, yeah.
    Senator King. And standardize parts and those kinds of 
things.
    You are now nodding. Is that correct? Is that where we're 
headed?
    Mr. Hopkins. Yes, sir, that's the intent of the small 
modular reactor is people ask often why we limit our size to 50 
megawatt electric because still a lot of our testing on seismic 
and etcetera, the height of the containment and the reactor 
itself, we wanted to ensure that it lent itself to a 
standardization of design so we could build these in a factory, 
both containment and the reactor. So what you have in the field 
is really a civils project, concrete to steel.
    Senator King. Exactly.
    Do we have any price? Do we have any per megawatt numbers 
on this new approach?
    Mr. Hopkins. Well, Senator Cassidy mentioned earlier about 
we do have a customer. They have to prove their economics 
before they go before their membership.
    If you were looking today at Henry Hub prices of gas at 
less than $2 per million BTU, a levelized cost of engineering 
and combined cycle plant is nominally in the range of about $55 
per megawatt hour.
    Senator King. Yes.
    Mr. Hopkins. We're right now, with small modular reactors 
at today's prices, based on the economics, about $72 per 
megawatt hour.
    The question becomes if you look and it was mentioned 
earlier, in the West there's not a lot of gas. You have to 
bring the gas in. You have to go through the permitting 
process.
    But the question becomes with LNG exports and other things 
and moderate production right now where it was over capacity. 
There was a lot of people moving in are now leaving the gas. 
What will the gas be in five to seven years?
    Senator King. Sure.
    Listen, and once you do nuclear you have fixed your energy 
costs and your fuel costs. I understand that. That is true of 
hydro, wind, other. The difference is nuclear is base load. I 
understand that distinction.
    The question is can we get that initial capital cost down 
to a place where it makes sense? I think that is the challenge 
and that is what we are talking about here.
    Mr. Hopkins. Well, what we're looking at right now is we 
have to be commercial viable for these to exist; otherwise 
there is no market.
    And if you look at the small modular reactor, each of these 
units, of 12 of them, are independent. So you could put two or 
three and get them operational to stop--to start offsetting the 
cost of putting the additional plants in. So from a finance 
ability when you could put 600 megawatts for less than $3 
billion U.S. Those are financeable.
    Senator King. Yes.
    Mr. Hopkins. And those are, you can put those on a balance 
sheet. And we currently have banks coming to us now, you know, 
saying here's how we think we can finance your project. So 
that's a big step.
    Senator King. It is a big step. Again, I hope that we can 
work, get to the place where we have economic capital costs and 
that then the technology can provide enormous fossil fuel free, 
carbon free energy.
    Thank you.
    Mr. Hopkins. Absolutely.
    The Chairman. We are going to move to Senator Franken here.
    Thank you.
    Senator Franken. Thank you.
    Wait, what did you want to say, Dr. Peters?
    Dr. Peters. I was just going to re----
    Thank you, Senator.
    I was just going to re-emphasize that when you look at the 
research and innovation agenda for Generation IV reactors, a 
big part of what we're focused on is, in fact, addressing the 
cost, getting down the cost curve.
    Senator Franken. Okay.
    Dr. Peters. At the early stage as well.
    So it is pushing the envelope on safety, burning the fuel 
more efficiently, but also going after design features that 
will help reduce capital cost because that is clearly a huge 
obstacle, I would say, to getting to commercialization.
    Senator Franken. Okay, that is enough. [Laughter.]
    Senator Franken. It has been five years since Fukushima, so 
it is important that we keep safety in the forefront when we 
are discussing nuclear power. I want to ask about these small 
modular reactors and advanced nuclear technologies and how they 
could potentially enhance safety if they are designed to 
operate without the need for external power to cool the 
reactors after all was loss of backup power from generators at 
the Fukushima plant that caused the cooling systems to fail.
    Mr. Hopkins, can you give us an overview of the major 
safety concerns with traditional nuclear power and how SMRs 
improve safety such as by removing the need for backup power?
    Mr. Hopkins. Yes, sir.
    Actually two weeks ago I was in Japan and had this 
conversation. If you recall what happened at Fukushima, it 
wasn't the earthquake, it was the tsunami that resulted in 
knocking out the electrical which therefore knocked out the 
cooling pumps and the plant couldn't cool itself down.
    The small modular reactor passive safety systems. And this 
actually came about 15 years ago under a DOE program called 
Multiple Application of Small Modular Reactors. And the intent 
in the objective was to design a reactor with safety in mind. 
It wasn't about economics.
    So even prior to Fukushima a lot of passive safety systems 
that were going on research at Oregon State University and Dr. 
Jose Reyes had to deal a lot with what the problems that 
occurred in Fukushima.
    So our plan in passive safety, we refer to as the triple 
crown. If you were to have a station black out situation, the 
way that the reactor is designed it will cool itself down. You 
don't need operator intervention. You don't need additional 
electricity nor do you need additional water for this 
particular reactor to cool down.
    And thinking this core is 120th the size of the large 
reactor. And so part of what we have at our Technical Advisory 
Boards that are made up of Senior Chief Nuclear Officers from 
23 utilities and technical staff is to--and these are actual 
operators to look at those sequences. How would this reactor 
cool itself down? How can you circumvent a Fukushima event? And 
we believe the science is there and that's what we're currently 
working with the NRC with.
    Senator Franken. Okay.
    Mr. Gilleland?
    Dr. Gilleland. Yes? It's the same.
    Senator Franken. What are the safety benefits of advanced 
nuclear designs like TerraPower's technology?
    Dr. Gilleland. It's a very similar answer.
    The reactor is designed in such a way that the heat is 
efficiently conducted from the fuel out through the coolant, 
and it's because we use metal fuel and metal coolant.
    Long story short, if you had a Fukushima there's no 
problem. You can have no internal or external power and the 
heat will be conducted to the outside world after the reactor, 
because of the way the physics works, shuts itself down. 
There's no need for a computer or a human to decide anything.
    In addition, the mother of all accidents is that you also, 
not only lose that power for cooling, but you fail to put the 
control rods back in which is not what happened. This is worse 
than Fukushima. In that case the reactor also reduces 
automatically, its power to a very low level and can remain in 
that state indefinitely.
    So that was the starting point for much of what our design 
effort was about. That first aspect of being able to use that 
type of reactor to shut itself down when there is loss of 
cooling was demonstrated at Idaho many, many years ago, the 
walk away reactor. So this gentleman's elderly people saw it 
done.
    Senator Franken. Okay, good.
    Let me ask a question about the need for base load, because 
that has been brought up here. To what extent does advanced 
storage technology one, make the smaller reactors actually, 
maybe, a good idea since you do not need to necessarily be the 
base load? To what extent does better storage speak to that? 
And to what extent does better storage and real advances in 
storage decrease the need for the kind of base load that we 
have needed throughout our history?
    Dr. Gilleland. Well in my opinion, storage does not 
decrease the need for base load. It's a huge amount of energy, 
and load following which has been mentioned before would be 
very useful in these plants. You wouldn't have to have storage. 
But at a certain point running a reactor steady state at full 
power for 90 percent of the time, that's a very economic way to 
operate a nuclear plant or power facilities.
    But people usually use the term energy storage in the 
context of renewables which are inherently intermittent like 
wind and solar. There it would be helpful in the dispatching of 
that energy when you need it versus when the sun is shining or 
the wind is blowing.
    Senator Franken. That is what I am talking about.
    Dr. Gilleland. I beg your pardon?
    Senator Franken. That is what I am talking about.
    Dr. Gilleland. Oh, but you're still stuck with the fact 
that the solar constant is a constant and that even if you were 
to provide free energy storage you still have to think about 
the fact that you're going to have to rate the system to 
produce, in a short period of time, the energy you want to 
deploy over a longer period of time.
    What that adds up to is a lot more acres, a lot more square 
miles going into solar panels or into sites for wind.
    Senator Franken. Okay.
    Dr. Gilleland. So there's a fundamental logic that says 
storage will help renewables but it's not going to get around 
the inherent problems associated with intermittency and the 
amount of energy density that's available from the sun or the 
wind.
    Senator Franken. Okay.
    Does anybody else have an----
    Dr. DeWitte. I would just add that storage also can couple 
well with the nuclear power plants as well because you can 
charge those up at night and then discharge them in the day to 
either match up with renewables or match the curve. So there 
are opportunities for storage innovation improvements to 
partner well with nuclear technology.
    Dr. Peters. But the investment in storage is absolutely 
vital. You know, it doesn't replace.
    Everything that they said was--I totally agree with, but 
innovation in storage is really an important thing to continue 
to support from the government.
    Senator Franken. I see a lot of nodding.
    Dr. Peters. Yes, really, really important to support.
    Senator Franken. Like for me too. I am nodding that my time 
is up. [Laughter.]
    The Chairman. I agree on both counts. [Laughter.]
    The Chairman. Storage and your time is up.
    Let me turn to Senator Alexander, if you would like to pose 
a second question in the second round?
    Senator Alexander. Well thanks. This is very interesting 
and I thank you all.
    On Senator Franken's point and Dr. DeWitte, I think that is 
very important. The disadvantage of nuclear power is that you 
cannot turn them on and off, but the use of them and the demand 
goes way up in the afternoon. So if we had a really good 
storage system, probably the greatest beneficiary of a really 
good storage system would be nuclear power because it produces 
so much electricity.
    The second thing, on Dr. Gilleland's point, we use about a 
quarter of all electricity in the world in this country. So 
we're not going to run the country on windmills. I have said 
many times that is like going to war in sailboats when the 
nuclear navy is available. I mean, it is useful. It is helpful.
    Third, on the subsidies, the Senator from Maine asked about 
the Pricewaterhouse. Well, the nuclear industry self-insures 
$3.75 billion which has never been used for accidents. So the 
first money comes from the nuclear industry. I think that would 
be important to point that out, Mr. Kuczynski, next time he 
gets asked about that.
    On top of that, then the government might come in. But we 
come in from many emergency and disasters well before that. 
That would be our responsibility and it has never been used.
    As far as the phase out of the wind subsidy, I mean, let's 
think about this. It has been going on for 24 years. The last 
energy secretary was a Nobel prize winner, and in testimony 
before this Committee he said it is a mature technology.
    Now small reactors are not a mature technology. For the 
last five years we have been trying to pay for the government's 
part in helping that get off the ground. Advanced reactors are 
not a mature technology. That is where we might actually deal 
with climate change. We might actually deal with it there.
    Here we are wasting $4 or $5 billion a year, and the point 
that it is phased out, that is a trick. That is a trick. It has 
been phased out more than a dozen times. That is called an 
extension. Now they have just extended it for a longer period 
of time and called it a phaseout, but it costs $4 or $5 billion 
a year. It is not $40 or $50 million, it is $4 or $5 billion. 
That is the amount of money that would double what we could 
spend on energy research.
    So I think it is time for us to become rational about our 
energy policy, and rational to me means create an environment 
of government support through short-term support for new 
technologies. For example, there is a production tax credit for 
nuclear which, I guess, Mr. Kuczynski, you will take advantage 
of. But it is capped at 6,000 megawatts. The wind is uncapped. 
That is another big difference next time that question comes 
up.
    So I favor, Madam Chairman, short-term support for new 
technologies and then they are on their own. The reason solar 
is about to be competitive is it does not have that kind of 
support. They have had some support, but nothing like these 
generous production taxes credits. As a result the cost of 
solar has been coming down, down, down, and it is about to get 
competitive as a supplement to the huge base load power that we 
need.
    We need for the same thing to happen, not just with wind 
power, it needs to be on its own. I mean right now we have got 
a big company trying to build big towers to destroy the 
landscape in Tennessee where the wind blows 18 percent of the 
time. That is absolutely absurd.
    TVA has said we don't need any more new electric base load 
power for 20 years, and we have taxpayers spending money they 
could be spending on clean energy research to build wind 
turbines in a place where they would just spoil the environment 
and where the power is not needed. That is really bad policy.
    I would like to see, as far as NuScale's support, the 
support for advanced reactors. The whole idea there is that 
support will end and you will be competitive or you won't 
exist, right? I mean, you have said that to us in testimony if 
I am not mistaken.
    Mr. Hopkins. Correct.
    Senator Alexander. So, I think that is the approach, Madam 
Chairman, we should take with any of these new technologies 
where they are promising we should invest heavily in research, 
perhaps even support jump-starting a new technology like 
advanced reactors or maybe some, I mean, like small reactors, 
maybe some advanced reactor. But get out of the way, and then 
see what can survive.
    Solar is about to survive. We hope NuScale will survive. We 
hope some of these new advanced reactors will have that as 
well. Let wind power survive too, then maybe some of these 
Illinois nuclear plants won't close because of negative 
pricing.
    You have been very generous to let me extemporize here at 
the end, and I thank you for it.
    The Chairman. Well, Senator Alexander, I know you have been 
occupied on the floor moving through education bills and our 
first appropriations bills, but we miss you in the Committee. 
Your contribution is not only important, but just a good 
reminder to us of the role that government should be playing as 
we help to facilitate this.
    I think one of the things that I have enjoyed as I have 
learned more about these advanced reactor technologies is just 
the whole smorgasbord that is out there. We are not talking 
about one approach, one technology. There is a diversity now 
that I think we recognize. How we figure out how we encourage 
that rather than doing what we do around here, which is 
deciding who the winners and who the losers are going to be, 
and hoping that we bet on the right one.
    So your comments about this, I think, are very important on 
the level of support that we should be providing at the Federal 
level.
    I want to ask one more quick question, and then we will 
wrap up. I appreciate everyone giving us so much time this 
morning.
    This is directed to you, Dr. DeWitte, because I am very 
curious about the true potential for what you are describing 
with micro-reactors and the potential in remote areas. Whether 
it is a place like Alaska or you think about some of our 
islands and our territories.
    I have been going back and forth a lot with the folks in 
Guam about what we are going to do. We have military buildup 
there, but basically you are an island that is still powered by 
diesel. CNMI is still powered by diesel. Look at Puerto Rico, 
and the financial mess that they are in. So much of that comes 
to them because they have not been able to figure out how they 
deal with their energy.
    I look at some of these areas as just a perfect opportunity 
or environment to have these smaller scaled technologies. But 
how you deploy them out--and let's use Alaska. Let's take an 
area like Bethel. You've got about 4,000 people out there. You 
are not attached by road. It is expensive in the first place.
    How do you deploy? How do you deal with, you mentioned in 
response to, I believe it was Senator Cassidy, some of the 
issues about how you deal with the proliferation? You are 
sitting out there in Bethel, and I think you indicated that 
this is heavy, difficult stuff to move. Realistically how could 
something like this work in remote, high cost areas with small 
populations?
    Dr. DeWitte. Thank you for the question, Senator.
    That's exactly the market that we are targeting is to bring 
power to save money in places like Bethel where we would build 
probably between two and four reactors. And they work in a neat 
way because they're designed in a containerized fashion such 
that we would ship basically two shipping containers nominally 
out per reactor that would go. So in the case of four reactors, 
we'd have eight containers that would go up. In four of those 
containers are the reactors themselves, the reactor module. We 
would then bury that in a hole that we'd dig, not very deep, 
about 20 feet deep. And then on top we would put the other 
container which contains the power----
    The Chairman. We want to talk to you later about permafrost 
and how we deal with that, but yes. [Laughter.]
    Dr. DeWitte. Fair.
    So in those situations we can actually mound up and it 
works above. Good point though. But and that actually adds a 
nice benefit for a couple reasons, permafrost itself, but 
that's a separate conversation.
    But anyway, you put the reactors there and then the process 
works that you can then tie up to either a microgrid solution 
or whatever the local grid system is there. And advances in 
power electronics actually enable us to do even more things in 
terms of grid matching and harmonizing with demand curves in 
small communities that are islanded from other grids 
effectively. And we would produce power for 12 years before 
refueling. And these systems use low enriched fuel, so they're 
not weaponizable material. They're also fairly small. I mean, 
you talk about fitting a shipping container. That also means 
there's not much fuel in there. But they're also not small 
enough that you can just throw it on the back of your pickup 
truck and drive away. They weigh 30 plus tons. And you don't 
have equipment left there that would be able to move them, as 
well as the emplacement that goes on top of them.
    To the point that then the reactors themselves really 
aren't attractive, you know, targets to say to go after and try 
to get materials. Plus, from the intervention side and 
security, like Senator Cassidy mentioned and asked, you know, 
we have a staff. We'll plan on having security staff and 
personnel inside but it's also something we can respond to just 
like we have those plans in place for research and test 
reactors in other places. It's something that we can manage and 
definitely secure and make sure that it is not presenting a 
problem.
    And the important thing though is that this provides a 
level of energy security and reliability that these communities 
have never really seen before, right? They no longer have to 
rely on diesel.
    We've talked to some folks in certain communities that talk 
about bringing diesel in on dog sled. Those costs get super 
expensive very quickly. We eliminate those problems.
    On top of that it's not just electricity we can provide, 
it's also process heat, right? So we can heat community centers 
or even local, if we tied into the infrastructure that is in 
place, district heating. And we could tie into that and supply 
for that.
    And the important thing is that this saves a lot of money 
over diesel fuel, and it opens up, basically, larger portions 
of energy to be used by those populations to help overcome a 
lot of the challenges that they're stuck with which is, you 
know, constrained by limited access to power.
    And in terms of operations, you know, we have these things 
operated, the small crew, because they're cooled purely by 
natural forces. We wanted to design something that's very 
robust such that it doesn't require much intervention or 
maintenance or monitoring. So you kind of operate this thing 
sort of like you think of an oil rig where you have crews going 
in and off, and that's basically how we provide that 
infrastructure and then produce power in these areas. And it 
gives us the opportunity to be able to put these nearly 
anywhere. So that's really the objective that we're trying to 
go after.
    The Chairman. We have talked a fair amount about public-
private partnerships and working with the national labs, 
working with universities. How much has been done with the 
Department of Defense?
    They obviously have not necessarily a renewable mandate, 
but a goal toward reduced emissions on military installations. 
At one point in time the community of Galena, along the Yukon 
River, was actually looking at small nuclear as a potential for 
not only that community, but what, at that time, remained of a 
military installation.
    How much discussion is going on with DOD for military 
installations, particularly in more remote areas whether it is 
Guam or whether it is Eielson Air Force Base?
    Dr. DeWitte. We've engaged with different groups in the 
Department of Defense who've been interested in this. I think 
the big issue is they understand, generally, the need profile, 
but I think where we are and where we need to get to is to show 
that this is a mature technology that works. And I don't think 
the DOD is necessarily the right place to, well, let me 
rephrase that. The way they've looked at it is not necessarily 
the right place to start.
    I think that can change as they see this going, and I think 
there's opportunities and partnerships between DOD and private 
industry like with what we're doing in possibly DOE in showing 
that this can work. But DOD has been hesitant to, I would say, 
take the lead on doing these reactor technologies because I 
think they still perceive them to be more on the developmental 
stage and not quite as ready for deployment. And we're hoping 
to change that perception very soon.
    The Chairman. Mr. Hopkins, do you have any comments on that 
aspect of it or just the applicability of the small reactors?
    Mr. Hopkins. My understanding, Senator, is that in fact the 
DOD are looking now at small modular reactors. I think one 
thing that helped us all is the Administration's Executive 
Order on Alternative Energy last year came out and included 
SMRs as part of alternative energy which could open the brand 
with four Federal facilities.
    If you look at your state in an area of Fairbanks, we have 
quite a few military installations, Fort Richardson, Fort 
Greeley, a large air force base. If you could work out a PPA 
with the local utility to provide the military installation 
reliable energy of which they need, not only for the military 
installations but also the surrounding community where the 
support staff is and where these people live. I envision that I 
could see applications for micro or small modular reactors in 
those types of instances.
    The Chairman. I appreciate that.
    Very interesting discussion this morning. I appreciate the 
contributions of all of you and your leadership in this area 
which, again, I believe very, very strongly, needs to be a 
robust part of our energy portfolio.
    So thank you for your contributions.
    And with that, we stand adjourned.
    [Whereupon, at 11:59 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                  
                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
